   D-2007-123                    September 12, 2007




Summary of Information Assurance Weaknesses Found in
     Audit Reports Issued From August 1, 2006,
                Through July 31, 2007
Additional Copies

To obtain additional copies of this report, visit the Web site of the Department of
Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
(703) 604-8932.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Office of the Deputy
Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
604-8932. Ideas and requests can also be mailed to:

                     ODIG-AUD (ATTN: Audit Suggestions)
                     Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704




Acronyms

FISMA                 Federal Information Security Management Act
GAO                   Government Accountability Office
IA                    Information Assurance
OIG                   Office of Inspector General
OMB                   Office of Management and Budget
                             INSPECTOR GEN ERAL
                           DEPARTMENT OF DEFENSE
 

                            400 ARMY NAVY DRIVE
 

                       ARLINGTOf\J, VIRGINIA 22202-4704
 




                                                                     September J 2. 2007

MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COM PTROLLER)
               NAVAL INSPECTOR GENERAL
               AUDITOR GENERAL. DEPARTMENT OF THE ARMY

SUBJECT: Report on Summary of Information Ass urance Weaknesses Found in Audit
         Reports Issued From August 1. 2006, Through July 31,2007
         (Rep ort No. 0-2007-1 23)


         We are providing this summary report for information and use. We did not issue
a draft report because this report summarizes material that has already been published.
Th is report cont ains no recommendations: therefore, no written response to this report
was requ ired, and none was received.

       We appreci ate the courte sies extended to the staff. Questions should be directed
to Ms. Kathryn M. Truex at (703) 604-8966 (OSN 664-8966) or Mr. Robert R. Johnson at
(703) 604-9024 (OSN 664-9024). See Appendix G for the report distribution. The team
mem bers are listed inside the back cover.

                               By direction of the Deputy Inspector General for Auditing:



                                         JJ~                    ,
                                     t
                                         '~d a A . Scott'
                                         Assistant Inspector General
                                         Readiness and Operations Support
               Department of Defense Office of Inspector General
Report No. D-2007-123                                                September 12, 2007
   (Project No. D2007-D000LB-0115.000)

Summary of Information Assurance Weaknesses Found in Audit Reports
          Issued From August 1, 2006, Through July 31, 2007

                                 Executive Summary

Who Should Read This Report and Why? Military and civil service personnel who
develop, manage, operate, or oversee DoD information technology resources should read
this report to obtain better awareness of identified challenges to information assurance
and the potential risks those challenges pose in the context of a shared DoD information
technology environment.

Background. This report summarizes information assurance weaknesses that the
Government Accountability Office, the DoD Office of Inspector General, the Army
Audit Agency, the Naval Audit Service, and the Air Force Audit Agency reported
between August 1, 2006, and July 31, 2007. It supports the Federal Information Security
Management Act of 2002, which requires that agencies submit to the Office of
Management and Budget the results of an annual independent evaluation of the
effectiveness of their information security programs and practices. The evaluation should
include testing of the effectiveness of information security policies, procedures, and
practices of a subset of the agency’s information systems and may be based, in whole or
in part, on an audit, evaluation, or report relating to agency programs or practices. This
report is the ninth information assurance summary report issued by the DoD Office of the
Inspector General since January 1999.

Summary of Information Assurance Weaknesses. Between August 1, 2006, and
July 31, 2007, the Government Accountability Office, the DoD Office of Inspector
General, the Army Audit Agency, the Naval Audit Service, and the Air Force Audit
Agency issued 36 reports addressing a wide range of information assurance weaknesses
that persist throughout DoD systems and networks. If these weaknesses continue, they
will impede the ability of DoD to mitigate risks in a shared information technology
environment. Those risks include unauthorized access to information or information
systems and their consequent loss, misuse, or modification. A loss of information is itself
unacceptable and could result in loss of mission effectiveness.
Table of Contents 


Executive Summary 	                                                            i


Background 	                                                                   1


Objectives 	                                                                   2


Finding
      Information Assurance Weaknesses Persist Throughout DoD 	                3


Appendixes
      A.   Scope and Methodology 	                                             7

      B.   Prior Coverage 	                                                    8

      C.   Glossary 	                                                          9 

      D.   Matrix of Information Assurance Weaknesses Reported From

             August 1, 2006, Through July 31, 2007                            12 

      E. Audit Reports Issued From August 1, 2006, Through July 31, 2007, 

             Identifying Information Assurance Weaknesses                     14 

      F. 	 Audit Reports From Prior Information Assurance Summary Reports 

             With Unresolved Recommendations                                  17 

      G. Report Distribution 	                                                21 

Background 

    This report summarizes information assurance (IA) weaknesses that the
    Government Accountability Office (GAO) and the DoD audit community—the
    DoD Office of Inspector General (OIG), the Army Audit Agency, the Naval Audit
    Service, and the Air Force Audit Agency—identified in reports between
    August 1, 2006, and July 31, 2007. This report is the ninth annual IA summary
    the DoD OIG has issued since January 1999. The nine IA reports summarize 405
    reports on IA weaknesses.

    This report supports the DoD OIG response to section 3545 of Public
    Law 107-347, Title III, “Federal Information Security Management Act,”
    December 17, 2002, requiring agencies to submit the results of an annual
    independent evaluation of the effectiveness of their information security policies,
    procedures, and practices to the Office of Management and Budget (OMB). The
    evaluation results may be based, in whole or in part, on an audit, evaluation, or
    report relating to agency programs and practices.

    Privacy Act of 1974. The intent of the Privacy Act of 1974, section 552a (as
    amended), Title 5, United States Code, is to require Federal agencies to protect
    individuals against unwarranted invasions of their privacy by limiting the
    collection, maintenance, use, and disclosure of personal information about them.
    The Act requires that Federal agencies establish information practices that restrict
    disclosure of personally identifiable records and grants individuals increased
    access to agency records maintained on them. The E–Government Act of 2002
    additionally requires that Federal agencies protect the collection of personal
    information in Federal government information systems by conducting Privacy
    Impact Assessments. A Privacy Impact Assessment is an analysis of how
    personal information is collected, stored, shared, and managed in Federal
    information technology systems.

    Federal Information Security Management Act. The Federal Information
    Security Management Act (FISMA) provides a comprehensive framework for
    ensuring the effectiveness of IA controls over information resources that support
    Federal operations and assets. FISMA requires that each agency develop,
    document, and implement an agency-wide IA program to provide IA for the
    information and information systems that support the operations and assets of the
    agency. Each agency is to comply with FISMA and related policies, procedures,
    standards, and guidelines, including the information security standards
    promulgated under section 11331, Title 40, United States Code
    (40 U.S.C. 11331), “Responsibilities for Federal information systems standards.”
    40 U.S.C. 11331 requires that standards and guidelines for Federal information
    systems be based on standards and guidelines developed by the National Institute
    of Standards and Technology. FISMA permits agencies to develop and use their
    own IA standards as long as they are more stringent than those prescribed under
    FISMA.

    National Institute of Standards and Technology. To meet its statutory
    responsibilities under FISMA, the National Institute of Standards and
    Technology, part of the U.S. Department of Commerce, developed a series of


                                         1

    standards and guidelines to provide IA for operations and assets of Federal
    agencies. Specifically, the Computer Security Division of the Information
    Technology Laboratory developed computer security prototypes, tests, standards,
    and procedures designed to protect sensitive information from unauthorized
    access or modification. Focus areas include cryptographic technology and
    applications, advanced authentication, public key infrastructure, internetworking
    security, criteria and assurance, and security management and support. The
    standards and guidelines present the results of National Institute of Standards and
    Technology studies, investigations, and research on information technology
    security.

    DoD Information Assurance Guidance. DoD IA guidance includes:

           •	 DoD Instruction 5200.40, “DoD Information Technology Security
              Certification and Accreditation Process (DITSCAP),”
              December 30, 1997, which establishes policy, assigns responsibilities,
              and prescribes procedures for the certification and accreditation of
              information technology.

           •	 DoD Directive 5400.11, “DoD Privacy Program,” May 8, 2007, which
              establishes policy for the respect and protection of an individual’s
              personal information and fundamental right to privacy.

           •	 DoD Directive 8500.1, “Information Assurance,” October 24, 2002,
              which establishes policy and assigns responsibility to achieve IA
              throughout DoD;

           •	 DoD Instruction 8500.2, “Information Assurance Implementation,”
              February 6, 2003, which implements the policy, assigns
              responsibilities, and prescribes procedures for applying integrated
              layered protection of DoD information systems and networks as DoD
              Directive 8500.1 outlines; and

           •	 DoD Directive 8570.1, “Information Assurance Training,
              Certification, and Workforce Management,” August 15, 2004, which
              establishes policy and assigns responsibility for DoD IA training,
              certification, and workforce management.


Objectives
    This is one in a series of summary reports that the DoD OIG has issued annually
    since 1999. The overall objective was to summarize reports by GAO and the
    DoD audit community between August 1, 2006, and July 31, 2007. This
    summary report supports the DoD OIG response to the requirements of FISMA.

    See Appendix A for a discussion of the scope and methodology, and Appendix B
    for prior coverage related to the objective.




                                         2

                   Information Assurance Weaknesses
                   Persist Throughout DoD
                   Between August 1, 2006, and July 31, 2007, GAO and the DoD audit
                   community issued 36 reports addressing a wide range of IA weaknesses
                   that persist throughout DoD systems and networks.* This report
                   summarizes those reports.

                   If the IA weaknesses continue, they will impede the ability of DoD to
                   mitigate risks in a shared information technology environment. Those
                   risks include harm resulting from loss, misuse, unauthorized access, and
                   modification of information or information systems. A loss of information
                   in DoD information systems is itself unacceptable and could undermine
                   mission effectiveness.


Reports on Information Assurance Weaknesses
           The weaknesses identified in reports by GAO and the DoD audit community were
           defined by FISMA, DoD Instruction 5200.40, DoD Directive 5400.11, DoD
           Instruction 8500.2, or DoD Directive 8570.1. The table on the next page shows
           the number of GAO and DoD audit community reports, by agency, that identify
           weaknesses in IA areas. See Appendix C for a glossary of specialized terms.




*
    DoD OIG reported similar IA weaknesses in eight previous IA summary reports.



                                                    3

             Audit Reports Identifying Information Assurance Weaknesses
                        (August 1, 2006, through July 31, 2007)
                                                                 Military
                IA Areas                       GAO   DoD OIG   Departments    Total

    Access Controls                             0       7           8          15
    Certification and Accreditation             0       6           1           7
    Configuration Management                    0       5           2           7
    Contingency Plans                           0       3           4           7
    Continuity of Operations Plans              0       4           3           7
    Federal Information Systems
     Inventory Reporting                        0       2           0           2
    Incident Handling                           0       1           0           1
    Personnel Security                          0       0           1           1
    Physical Security                           0       4           1           5
    Plans of Action and Milestones              0       1           0           1
    Privacy Act Information                     0       1           9          10
    Risk, Threat, and Vulnerability
     Assessments                                0       1           1           2
    Security Awareness, Training,
     and Education                              0       4           4           8
    Security Policies and Procedures/
     Management Oversight                       1       9          23          33

Types of Weaknesses
    Reports issued during the reporting period most frequently cited weaknesses in
    the following IA areas: access controls; Privacy Act information; security
    awareness, training, and education; and security policies and procedures. See
    Appendix D for a matrix of the specific IA weaknesses listed by report and
    Appendix E for a list of reports reviewed for this IA summary report.

            Access Controls. Access controls limit access to information system
    resources to authorized users, programs, processes, or other systems. The DoD
    audit community reported weaknesses related to access controls in 15 reports.
    The weaknesses related to:

                 •	 user account management, including maintaining complete user
                    account forms, reviewing accounts periodically to determine
                    whether access is still necessary, and reviewing user activity;

                 •	 actions allowed by the systems, including access to FOUO,
                    Privacy Act, and protected health information by users without
                    appropriate rights and permissions;

                 •	 separation of duties; and

                 •	 development and implementation of the required audit trail for
                    recording changes in user access and permissions.


                                          4

            Privacy Act Information. Agencies are required to limit the collection,
    maintenance, use, and disclosure of privacy information on individuals. The DoD
    audit community identified weaknesses related to Privacy Act information in 10
    reports. The reports identified weaknesses related to:

               •	 disposal of documents containing personal protected information;

               •	 timely and uniformly implementing privacy program policy; and

               •	 meeting Privacy Impact Assessment requirements of the
                  E–Government Act of 2002.

    In response to DoD OIG Report No. D-2007-099, “DoD Privacy Program and
    Privacy Impact Assessments,” the Assistant Secretary of Defense for Networks
    and Information Integration/Chief Information Officer has agreed to implement
    measures that will enhance protection of all personal protected information in
    DoD information technology systems. The Navy’s Chief Information Officer has
    acknowledged the ever-increasing threats to personal identification information
    and taken actions to reduce threats and increase the awareness of Navy personnel.
    The DoD Senior Privacy Official is waiting until the DoD Privacy Office
    compiles the results of a Component Privacy Survey before taking action to
    correct deficiencies in the DoD Privacy Program.

            Security Awareness, Training, and Education. The reports identified
    weaknesses in the area of training for personnel responsible for information
    security and the administration of training. The DoD audit community reported
    weaknesses relating to security awareness, training, and education in eight issued
    reports.

           Security Policies and Procedures. The audit reports identified
    weaknesses in security policies and procedures. GAO and the DoD audit
    community reported weaknesses relating to security policies and procedures in
    33 issued reports.

    The eight previous IA annual reports summarized 369 reports on IA weaknesses
    throughout DoD. Of those 369 reports, 40 reports had unresolved
    recommendations, meaning management had not corrected agreed-upon IA
    weaknesses within 12 months of the report issue date. Prompt action to correct
    the outstanding weaknesses is necessary to mitigate ongoing vulnerabilities in the
    DoD IA program. See Appendix F for a listing of reports with unresolved
    recommendations relating to IA weaknesses.


Conclusion
    Many of the weaknesses reported occurred because management of security
    programs was inadequate and security policies and procedures were not in place.
    Without adequate security program management and security policies and
    procedures, DoD cannot provide and maintain appropriate security for managing,
    protecting, and distributing information. Implementing adequate security


                                         5

program management and security policies and procedures may reduce the risk of
persistent IA weaknesses, thereby reducing unauthorized access to information or
information systems and their consequent loss, misuse, or modification.




                                    6

Appendix A. Scope and Methodology 

   This report summarizes the DoD IA weaknesses identified in 36 reports that GAO
   and the DoD audit community issued from August 1, 2006, through
   July 31, 2007. To prepare this summary, the OIG audit team reviewed the Web
   sites of GAO and each component audit organization, as well as requested reports
   discussing IA weaknesses from each such organization. The OIG audit team also
   reviewed prior IA summary reports and, with the assistance of GAO and DoD
   audit community follow-up organizations, summarized reports with unresolved
   recommendations on IA weaknesses.

   This summary report does not make recommendations because recommendations
   were made in the summarized reports. We did not follow generally accepted
   government auditing standards in conducting this project because it is a summary
   project. We did not summarize congressional testimonies as originally announced
   because reviews of IA testimonies issued during the reporting period identified
   that the testimonies did not apply specifically, if at all, to DoD. Also, we did not
   include independent tests of management controls or validate the information or
   results reported in the summarized reports. This summary report supports the
   DoD OIG response to the OMB questions relating to FISMA. We conducted this
   summary work from February through August 2007.

   Use of Computer-Processed Data. We did not use computer-processed data
   when compiling information for this summary report.




                                        7

Appendix B. Prior Coverage 

   DoD OIG has issued eight information security summary reports. Unrestricted
   DoD OIG reports can be accessed at http://www.dodig.osd.mil/audit/reports. The
   remainder of the reports are For Official Use Only and can be obtained by
   contacting the Freedom of Information Act Requester Service Center at
   (703) 604-9775 (DSN 664-9775) or fax (703) 602-0294.

   DoD IG Report No. D-2006-110, “Summary of Information Assurance
   Weaknesses Found in Audit Reports Issued from August 1, 2005, through
   July 31, 2006,” September 14, 2006

   DoD IG Report No. D-2005-110, “Summary of Information Security Weaknesses
   Reported by Major Oversight Organizations From August 1, 2004, through
   July 31, 2005 (FOUO),” September 23, 2005

   DoD IG Report No. D-2004-116, “Information Security Weaknesses Reported by
   Major Oversight Organizations From August 1, 2003, through July 31, 2004
   (FOUO),” September 23, 2004

   DoD IG Report No. D-2004-038, “Information Assurance Challenges – A
   Summary of Results Reported from August 1, 2002, through July 31, 2003
   (FOUO),” December 22, 2003

   DoD IG Report No. D-2003-024, “Information Assurance Challenges – An
   evaluation of Audit Results Reported from August 23, 2001, through
   July 31, 2002 (FOUO),” November 21, 2002

   DoD IG Report No. D2001-182, “Information Assurance Challenges – A
   Summary of Audit Results Reported April 1, 2000, through August 22, 2001
   (FOUO),” September 19, 2001

   DoD IG Report No. D2000-124, “Information Assurance Challenges – A
   Summary of Audit Results Reported December 1, 1998, through March 31, 2000
   (FOUO),” May 15, 2000

   DoD IG Report No. 99-069, “Summary of Audit Results – DoD Information
   Assurance Challenges,” January 22, 1999




                                      8

Appendix C. Glossary
   Access Controls – Access controls limit information system resources to
   authorized users, programs, processes, or other systems.

   Audit Trail – An audit trail is a chronological record of system activities that
   enable the reconstruction and examination of the sequence of events and/or
   changes in an event.

   Certification and Accreditation – Certification and accreditation is a combined
   process that makes up the DoD Information Technology Security Certification
   and Accreditation Process.

           •	 Accreditation – Accreditation is the formal declaration by a
              designated accrediting authority that an information system is
              approved to operate in a particular security mode at an acceptable
              level of risk, based on the implementation of an approved set of
              technical, managerial, and procedural safeguards.

           •	 Certification – Certification is a comprehensive evaluation of the
              technical and nontechnical security safeguards of an information
              system to support the accreditation process that establishes the extent
              to which a particular design and implementation meets a set of
              specified security requirements.

   Configuration Management – Configuration management is the management of
   security features and assurances through control of changes made to hardware,
   software, firmware, documentation, test, test fixtures, and test documentation
   throughout the life cycle of an information system.

   Contingency Plan – A contingency plan is maintained for emergency response,
   backup operations, and post-disaster recovery of an information system to ensure
   the availability of critical resources and to facilitate the continuity of operations in
   an emergency situation.

   Continuity of Operations Plan – A continuity of operations plan is a plan for
   continuing an organization’s essential functions at an alternate site and
   performing those functions for the duration of an event with little or no loss of
   continuity before returning to normal operations.

   Federal Information Systems Inventory Reporting – The head of each agency
   must develop and maintain an inventory of major information systems, including
   major national security systems, operated by or under the control of the agency.
   The inventory of information systems or networks should include those not
   operated by or under the control of the agency.

   Incident Response – Also known as incident handling, incident response is the
   mitigation of violations of security policies and recommended practices.




                                          9

Personnel Security – The objective of the Personnel Security Program is to
ensure that the military, civilian, and contractor personnel assigned to and
retained in sensitive positions in which they could potentially damage national
security are, and remain, reliable and trustworthy, and no reasonable basis exists
for doubting their allegiance to the United States. Assignment to sensitive duties
is granted only to individuals who are U.S. citizens and for whom an appropriate
investigation has been completed.

Physical Security – Physical security refers to measures taken to protect systems,
buildings, and related supporting infrastructure against threats associated with
their physical environment.

Plan of Action and Milestones – A plan of action and milestones is a tool that
identifies tasks that need to be accomplished. A plan of action and milestones
details resources required to accomplish the elements of the plan, any milestones
in meeting the task, and scheduled completion dates for the milestones. The
purpose of a plan of action and milestones is to assist agencies in identifying,
assessing, prioritizing, and monitoring the progress of corrective efforts for
security weaknesses found in programs and systems.

Policies and Procedures – Policies and procedures are the aggregate of
directives, regulations, rules, and practices that regulate how an organization
manages, protects, and distributes information. Information security policy can
be contained in public laws, Executive orders, DoD Directives, and local
regulation.

Privacy Act Information – Privacy Act information is personal information
about an individual that links, relates, or is unique to or identifies or describes him
or her, such as social security number; age; military rank; civilian grade; marital
status; race; salary; home or office phone numbers; and other demographic,
biometric, personnel, medical, and financial information. This information is also
referred to as personally identifiable information, or that which can be used to
distinguish or trace an individual’s identity.

Risk Assessment – Risk assessment is an analysis of threats to and vulnerabilities
of information systems and the potential impact resulting form the loss of an
information system and its capabilities. The analysis is used as a basis for
identifying appropriate and cost-effective security measures.

Security Awareness, Training, and Education

       •	 Awareness – Awareness is a learning process that sets the stage for
          training by changing individual and organization attitudes to realize
          the importance of security and the adverse consequences of its failure.

       •	 Training – Training is teaching people the knowledge and skills that
          will enable them to perform their jobs more effectively.

       •	 Education – Education focuses on developing the ability and vision to
          perform complex, multi-disciplinary activities and the skills needed to
          further the information technology security profession. Education


                                      10

           activities include research and development to keep pace with
           changing technologies.

Segregation of Duties – Segregation of duties refers to dividing roles and
responsibilities so that a single individual cannot subvert a critical process.




                                      11

Appendix D. 	Matrix of Information Assurance
             Weaknesses Reported From
             August 1, 2006, Through July 31, 2007




                                                                                                                                                                                                                                                                                                                 Security Policies and Procedures/
                                                                                                                                                                                                                                                                                                                 Risk, Threat, and Vulnerability
                                          Certification and Accreditation




                                                                                                                          Continuity of Operations Plans




                                                                                                                                                                                                                                                      Plan of Actions and Milestones




                                                                                                                                                                                                                                                                                                                 Security Awareness, Training,
                                                                                                                                                           Federal Information Systems
                                                                            Configuration Management




                                                                                                                                                                                                                                                                                       Privacy Act Information




                                                                                                                                                                                                                                                                                                                 Management Oversight
                                                                                                                                                           Inventory Reporting



                                                                                                                                                                                                             Personnel Security
                                                                                                                                                                                         Incident Handling
                                                                                                       Contingency Plan




                                                                                                                                                                                                                                  Physical Security
                        Access Controls




                                                                                                                                                                                                                                                                                                                 Assessment

                                                                                                                                                                                                                                                                                                                 Education
      Agency
    Report No.
    Government
Accountability Office
    GAO-07-65                                                                                                                                                                                                                                                                                                                             X
      Office of
Inspector General of
      the DoD
    D-2007-101          X                 X
    D-2007-099          X                                                                                                                                                                                                                                                              X                                       X          X
    D-2007-096          X                                                   X                                                                                                                                                     X                                                                                X                      X
    D-2007-089          X                 X                                 X                          X                  X                                       X                                                                                   X                                                                                   X
    D-2007-082          X                 X                                 X                          X                                                                                 X                                        X                                                                                            X          X
    D-2007-040          X                                                   X                          X                  X                                                                                                       X                                                                                                       X
    D-2007-039                            X                                                                                                                       X                                                                                                                                                            X
    D-2007-031                                                                                                            X                                                                                                                                                                                                               X
    D-2007-025                            X                                                                                                                                                                                                                                                                                               X
    D-2007-006                                                                                                            X                                                                                                                                                                                                               X
    D-2006-107          X                 X                                 X                                                                                                                                                     X                                                                                            X          X
     Army
  Audit Agency
 A-2006-0199-FFI                                                                                                                                                                                                                                                                                                                          X
 A-2006-0181-FFI                                                                                                                                                                                                                                                                                                                          X
 A-2006-0180-FFI                                                                                                                                                                                                                                                                                                                          X
 A-2006-0179-FFI                                                                                                                                                                                                                                                                                                                          X




                                                                                                                                          12

                                                                                                                                                                                                                                                                                                                                                                   Naval




      Total
                                                                                                                                                                                                                                                                                                                                                                   Agency




                                                                                                                                                                                                   Air Force
                                                                                                                                                                                                                 N2006-0045
                                                                                                                                                                                                                              N2006-0048
                                                                                                                                                                                                                                           N2007-0004
                                                                                                                                                                                                                                                        N2007-0012
                                                                                                                                                                                                                                                                     N2007-0014
                                                                                                                                                                                                                                                                                  N2007-0016
                                                                                                                                                                                                                                                                                               N2007-0017
                                                                                                                                                                                                                                                                                                            N2007-0018
                                                                                                                                                                                                                                                                                                                         N2007-0025
                                                                                                                                                                                                                                                                                                                                      N2007-0035
                                                                                                                                                                                                                                                                                                                                                   N2007-0036
                                                                                                                                                                                                                                                                                                                                                                 Report No.

                                                                                                                                                                                                                                                                                                                                                                Audit Service




                                                                                                                                                                                                  Audit Agency
                                                                                                                                                                              F2007-0005-FB2000




                                                                                                                  F2007-0004-FB4000
                                                                                                                                      F2007-0006-FB4000
                                                                                                                                                          F2007-0004-FB2000




                                                                                              F2007-0001-FB4000




                                  F2006-0009-FB2000
                                                      F2006-0011-FB2000
                                                                          F2007-0001-FB2000




              F2006-0008-FB4000
                                                                                                                                                                              X




                                                                                                                  X
                                                                                                                                      X
                                                                                                                                                          X




                                  X
                                                      X
                                                                          X




              X
      15
                                                                                                                                                                                                                                                                                                                                                                       Access Controls




      7
                                                                                                                                                          X
                                                                                                                                                                                                                                                                                                                                                                       Certification and Accreditation




      7
                                  X
                                                      X
                                                                                                                                                                                                                                                                                                                                                                       Configuration Management




      7
                                                                                                                                      X
                                                                                                                                                          X
                                                                                                                                                                                                                                                                                  X
                                                                                                                                                                                                                                                                                               X
                                                                                                                                                                                                                                                                                                                                                                       Contingency Plan




      7
                                                                                                                                                                                                                                                                                  X
                                                                                                                                                                                                                                                                                               X




                                                                          X
                                                                                                                                                                                                                                                                                                                                                                       Continuity of Operations Plans




13

                                                                                                                                                                                                                                                                                                                                                                       Federal Information Systems




      2
                                                                                                                                                                                                                                                                                                                                                                       Inventory Reporting




      1
                                                                                                                                                                                                                                                                                                                                                                       Incident Handling




      1
              X
                                                                                                                                                                                                                                                                                                                                                                       Personnel Security




      5
                                                                                                                  X
                                                                                                                                                                                                                                                                                                                                                                       Physical Security




      1
                                                                                                                                                                                                                                                                                                                                                                       Plan of Actions and Milestones


                                                                                                                                                                                                                 X
                                                                                                                                                                                                                              X
                                                                                                                                                                                                                                           X
                                                                                                                                                                                                                                                        X
                                                                                                                                                                                                                                                                     X
                                                                                                                                                                                                                                                                                                            X
                                                                                                                                                                                                                                                                                                                         X
                                                                                                                                                                                                                                                                                                                                      X
                                                                                                                                                                                                                                                                                                                                                   X




      10
                                                                                                                                                                                                                                                                                                                                                                       Privacy Act Information
                                                                                                                                                                                                                                                                                                                                                                       Risk, Threat, and Vulnerability




      2
                                                      X
                                                                                                                                                                                                                                                                                                                                                                       Assessment
                                                                                                                                                                                                                                                                                                                                                                       Security Awareness, Training,




      8
                                                                                                                  X
                                                                                              X




                                  X
              X
                                                                                                                                                                                                                                                                                                                                                                       Education
                                                                                                                                                                                                                                                                                                                                                                       Security Policies and Procedures/
                                                                                                                                                                              X




                                                                                                                  X
                                                                                                                                      X


                                                                                              X
                                                                                                                                                                                                                 X
                                                                                                                                                                                                                              X
                                                                                                                                                                                                                                           X
                                                                                                                                                                                                                                                        X
                                                                                                                                                                                                                                                                     X
                                                                                                                                                                                                                                                                                  X
                                                                                                                                                                                                                                                                                               X
                                                                                                                                                                                                                                                                                                            X
                                                                                                                                                                                                                                                                                                                         X
                                                                                                                                                                                                                                                                                                                                      X
                                                                                                                                                                                                                                                                                                                                                   X




                                  X
                                                      X
                                                                          X




              X
      33
                                                                                                                                                                                                                                                                                                                                                                       Management Oversight
Appendix E. 	Audit Reports Issued From
             August 1, 2006, Through July 31,
             2007, Identifying Information
             Assurance Weaknesses

GAO
    GAO Report No. GAO-07-65, “Information Security: Agencies Need to Develop
    and Implement Adequate Policies for Periodic Testing,” October 20, 2006


DoD IG
    DoD IG Report No. D-2007-099, “Report on Audit of Privacy Program and
    Privacy Impact Assessments,” June 13, 2007

    DoD IG Report No. D-2007-101, “DFAS Corporate Database/DFAS Corporate
    Warehouse Compliance with the Defense Business Transformation Certification
    Criteria,” May 18, 2007

    DoD IG Report No. D-2007-096, “Information Assurance Controls for the
    Defense Civilian Pay System (FOUO),” May 14, 2007

    DoD IG Report No. D-2007-089, “Selected Controls for Information Security of
    the U.S. Transportation Command’s Integrated Computerized Deployment
    System (FOUO),” April 30, 2007

    DoD IG Report No. D-2007-082, “Defense Information Systems Agency Controls
    over the Center for Computing Services,” April 9, 2007

    DoD IG Report No. D-2007-040, “The General and Application Controls over the
    Financial Management System at the Military Sealift Command,” January 2, 2007

    DoD IG Report No. D-2007-039, “Audit of Information Assurance of Missile
    Defense Agency Information Systems (FOUO),” December 21, 2006

    DoD IG Report No. D-2007-031, “The Effects of Hurricane Katrina on the
    Defense Information Systems Agency Continuity of Operations and Test
    Facility,” December 12, 2006

    DoD IG Report No. D-2007-025, “Acquisition of the Pacific Mobile Emergency
    Radio System (FOUO),” November 22, 2006

    DoD IG Report No. D-2007-006, “Hurricane Katrina Disaster Recovery Efforts
    Related to Army Information Technology Resources,” October 19, 2006



                                      14

    DoD IG Report No. D-2006-107, “Defense Departmental Reporting System and
    Related Financial Statement Compilation Process Controls Placed in Operation
    and Tests of Operating Effectiveness for the Period October 1, 2004, through
    March 31, 2005 (FOUO),” August 18, 2006


Army Audit Agency
    Army Audit Agency Report No. A-2006-0199-FFI, “Installation Campus Area
    Network Connectivity - Terrestrial-Based Connections,” September 29, 2006

    Army Audit Agency Report No. A-2006-0181-FFI, “Installation Campus Area
    Network Connectivity - Wireless Networks (U.S. Army Garrison, Aberdeen
    Proving Ground, Maryland),” September 28, 2006

    Army Audit Agency Report No. A-2006-0180-FFI, “Installation Campus Area
    Network Connectivity - Wireless Networks (U.S. Army Garrison, Fort Huachuca,
    Arizona),” September 28, 2006

    Army Audit Agency Report No. A-2006-0179-FFI, “Installation Campus Area
    Network Connectivity - Wireless Networks (U.S. Army Garrison, Fort Gordon,
    Georgia),” September 15, 2006


Naval Audit Service
    Naval Audit Service Report No. N2007-0036, “Disposal of Protected Personal
    Information at Naval Support Activity Mid-South, Millington, TN (FOUO),”
    May 25, 2007

    Naval Audit Service Report No. N2007-0035, “Disposal of Protected Personal
    Information at Naval Station Norfolk and Naval Amphibious Base Little Creek,
    Norfolk, VA (FOUO),” May 25, 2007

    Naval Audit Service Report No. N2007-0025, “Disposal of Protected Personal
    Information at Naval Medical Center, VA,” April 12, 2007

    Naval Audit Service Report No. N2007-0018, “Disposal of Protected Personal
    Information at Naval District Washington, DC (FOUO),” March 1, 2007

    Naval Audit Service Report No. N2007-0017, “Ordnance Information System
    (FOUO),” February 28, 2007

    Naval Audit Service Report No. N2007-0016, “Information Systems Restoration
    and Data Recovery Related to Hurricane Katrina (FOUO),” February 23, 2007

    Naval Audit Service Report No. N2007-0014, “Disposal of Protected Personal
    Information at Marine Corps Base Camp Pendleton, CA (FOUO),”
    February 15, 2007


                                      15

    Naval Audit Service Report No. N2007-0012, “Disposal of Protected Personal
    Information at Naval Station San Diego, CA (FOUO),” February 2, 2007

    Naval Audit Service Report No. N2007-0004, “Management of Privacy Act
    Information at Naval District Washington (FOUO),” November 21, 2006

    Naval Audit Service Report No. N2006-0048, “Disposal of Protected Personal
    Information at Naval Station Great Lakes, IL,” September 27, 2006

    Naval Audit Service Report No. N2006-0045, “Disposal of Protected Personal
    Information at Naval Station Pensacola, FL (FOUO),” September 13, 2006


Air Force Audit Agency
    Air Force Audit Agency Report No. F2007-0005-FB2000, “Standard Base Supply
    System Controls,” July 13, 2007

    Air Force Audit Agency Report No. F2007-0004-FB2000, “Reliability,
    Availability, Maintainability Support System for Electronic Combat Pods System
    Controls,” May 25, 2007

    Air Force Audit Agency Report No. F2007-0006-FB4000, “Shared Network
    Storage Management (FOUO),” April 27, 2007

    Air Force Audit Agency Report No. F2007-0004-FB4000, “Security of Remote
    Computer Devices (FOUO),” March 13, 2007

    Air Force Audit Agency Report No. F2007-0001-FB4000, “Selected Aspects of
    Computer Network Intrusion Detection (FOUO),” December 12, 2006

    Air Force Audit Agency Report No. F2007-0001-FB2000, “Military Personnel
    Data System Controls,” November 20, 2006

    Air Force Audit Agency Report No. F2006-0011-FB2000, “Air Force Equipment
    Management System Controls,” September 25, 2006

    Air Force Audit Agency Report No. F2006-0008-FB4000, “Follow-Up Audit,
    Controls Over Access to Air Force Networks and Systems (FOUO),”
    September 11, 2006

    Air Force Audit Agency Report No. F2006-0009-FB2000, “Contract Writing
    System Controls,” August 3, 2006




                                      16

Appendix F. Audit Reports From Prior
            Information Assurance Summary
            Reports With Unresolved
            Recommendations
    IA weaknesses continue to exist throughout DoD. Of the 369 reports included in
    8 prior IA summary reports, 40 had unresolved recommendations; management
    had not corrected agreed-upon IA weaknesses within 12 months of the report
    issue date. The list of reports with unresolved recommendations was compiled
    based on information GAO and the DoD audit community provided in July 2007
    and may be incomplete because of the extent of information maintained in their
    respective follow-up systems.

GAO
    GAO Report No. GAO-06-31, “The Defense Logistics Agency Needs to Fully
    Implement Its Security Program,” October 7, 2005


DoD IG
    DoD IG Report No. D-2006-096, “Select Controls for the Information Security of
    the Command and Control Battle Management Communications System
    (FOUO),” July 14, 2006

    DoD IG Report No. D-2006-084, “Information Assurance of Commercially
    Managed Collaboration Services for the Global Information Grid (FOUO),”
    May 17, 2006
    DoD IG Report No. D-2006-079, “Review of the Information Security
    Operational Controls of the Defense Logistics Agency’s Business Systems
    Modernization Energy,” April 24, 2006

    DoD IG Report No. D-2006-078, “Defense Information Systems Agency
    Encore II Information Technology Solutions Contract (FOUO),” April 21, 2006

    DoD IG Report No. D-2006-074, “Technical Report on the Defense Civilian Pay
    System General and Application Controls (FOUO),” April 12, 2006

    DoD IG Report No. D-2006-069, “Technical Report on the Defense Business
    Management System (FOUO),” April 3, 2006

    DoD IG Report No. D-2006-060, “System Engineering Planning for the Ballistic
    Missile Defense System (FOUO),” March 3, 2006



                                      17

DoD IG Report No. D-2006-053, “Select Controls for the Information Security of
the Ground-Based Midcourse Defense Communications Network,” February 24,
2006

DoD IG Report No. D-2006-052, “DoD Organization Information Assurance
Management of Information Technology Goods and Services Acquired Through
Interagency Agreement,” February 23, 2006

DoD IG Report No. D-2006-046, “Technical Report on the Defense Property
Accountability System (FOUO),” January 27, 2006

DoD IG Report No. D-2006-042, “Security Status for Systems Reported in DoD
Information Technology Databases,” December 30, 2005

DoD IG Report No. D-2006-030, “Report on Diagnostic Testing at the Defense
Information Systems Agency, Center for Computing Services (FOUO),”
November 30, 2005

DoD IG Report No. D-2006-003, “Security Controls Over Selected Military
Health System Corporate Databases (FOUO),” October 7, 2005

DoD IG Report No. D-2005-099, “Status of Selected DoD Policies on
Information Technology Governance,” August 19, 2005

DoD IG Report No. D-2005-094, “Proposed DoD Information Assurance
Certification and Accreditation Process (FOUO),” July 21, 2005

DoD IG Report No. D-2005-069, “Audit of the General and Application Controls
of the Defense Civilian Pay System (FOUO),” May 13, 2005

DoD IG Report No. D-2005-054, “Audit of the DoD Information Technology
Security Certification and Accreditation Process (FOUO),” April 28, 2005

DoD IG Report No. D-2005-033, “Implementation of Interoperability and
Information Assurance Policies for Acquisition of Navy Systems,”
February 2, 2005

DoD IG Report No. D-2005-023, “Assessment of DoD Plan of Action and
Milestone Process (FOUO),” December 13, 2004

DoD IG Report No. D-2004-114, “The Follow-up on the Government
Accountability Office and U.S. Army Audit Agency Recommendations for the
U.S. Army Corps of Engineers (FOUO),” September 21, 2004

DoD IG Report No. D-2004-041, “The Security of the Army Corps of Engineers
Enterprise Infrastructure Services Wide-Area Network (FOUO),”
December 26, 2003

DoD IG Report No. D-2004-008, “Implementation of Interoperability and
Information Assurance Policies for Acquisition of Army Systems,”
October 15, 2003


                                  18

     DoD IG Report No. D-2003-134, “System Security of the Army Corps of
     Engineers Financial Management System (FOUO),” September 15, 2003

     DoD IG Report No. D-2002-108, “Standard Procurement System Certification
     and Accreditation Process (FOUO),” June 19, 2002

     DoD IG Report No. D-2001-148, “Automated Transportation Payments,”
     June 22, 2001

     DoD IG Report No. D-2001-141, “Allegations to the Defense Hotline on the
     Defense Security Assistance Management System,” June 19, 2001


Naval Audit Services
     Naval Audit Services Report No. N2005-0049, “Information Security Controls at
     Naval Shipyards,” July 7, 2005

     Naval Audit Services Report No. N2005-0036, “Verification of the Reliability
     and Validity of the Navy Enlisted System Data (FOUO),” March 30, 2005

     Naval Audit Services Report No. N2004-0063, “Information Security -
     Operational Controls at Naval Aviation Depots,” July 9, 2004

     Naval Audit Services Report No. N2003-0012, “Verification of the Reliability
     and Validity of the Department of the Navy’s Total Force Manpower
     Management System (TFMMS) Data,” November 8, 2002


Air Force Audit Agency
     Air Force Audit Agency Report No. F2006-0008-FB2000, “System Controls for
     Item Manager Wholesale Requisition Process System,” June 21, 2006

     Air Force Audit Agency Report No. F2006-0007-FB2000, “Missile Readiness
     Integrated Support Facility/Integrated Missile Database System Controls,”
     May 30, 2006

     Air Force Audit Agency Report No. F2006-0006-FB2000, “Controls for the
     Wholesale and Retail Receiving and Shipping System,” May 19, 2006

     Air Force Audit Agency Report No. F2006-0004- FB2000, “Implementation of
     Selected Aspects of Security in Air Force Systems,” April 17, 2006

     Air Force Audit Agency Report No. F2005-0010-FB2000, “System Controls for
     Financial Inventory Accounting and Billing System,” September 20, 2005

     Air Force Audit Agency Report No. F2005-0005-FB4000, “Certification and
     Accreditation of Air Force Major Command Systems,” July 11, 2005


                                        19

Air Force Audit Agency Report No. F2004-0006-FB2000, “System Controls for
Reliability and Maintainability Information System,” September 27, 2004

Air Force Audit Agency Report No. F2004-0006-FB4000, “Visibility of Air
Force Information Technology Resources,” May 4, 2004

Air Force Audit Agency Report No. 00054006, “Air Force Restoration
Information Management System Controls,” May 18, 2001




                                 20

Appendix G. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
Under Secretary of Defense for Personnel and Readiness
Assistant Secretary of Defense for Networks and Information Integration/Chief
   Information Officer
Assistant Secretary of Defense for Health Affairs/Chief Information Officer
Assistant Secretary of Defense for Intelligence Oversight/Chief Information Officer
Chief Information Officer, Office of the Secretary of Defense
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff
Chief Information Officer, Joint Staff

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Chief Information Officer, Department of Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Naval Inspector General
Auditor General, Department of the Navy
Chief Information Officer, Department of the Navy
Chief Information Officer, U.S. Marine Corps

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Chief Information Officer, Department of the Air Force




                                           21

Unified Commands
Chief Information Officer, U.S. Central Command
Chief Information Officer, U.S. European Command
Chief Information Officer, U.S. Joint Forces Command
Chief Information Officer, U.S. Northern Command
Chief Information Officer, U.S. Pacific Command
Chief Information Officer, U.S. Southern Command
Chief Information Officer, U.S. Special Operations Command
Chief Information Officer, U.S. Strategic Command
Chief Information Officer, U.S. Transportation Command

Other Defense Organizations
Chief Information Officer, American Forces Information Service
Chief Information Officer, Business Transformation Agency
Chief Information Officer, Defense Advanced Research Projects Agency
Chief Information Officer, Defense Commissary Agency
Chief Information Officer, Defense Contract Audit Agency
Chief Information Officer, Defense Contract Management Agency
Chief Information Officer, Defense Finance and Accounting Service
Chief Information Officer, Defense Information Systems Agency
Chief Information Officer, Defense Logistics Agency
Chief Information Officer, Defense Security Cooperation Agency
Chief Information Officer, Defense Security Service
Chief Information Officer, Defense Technical Information Center
Chief Information Officer, Defense Technology Security Administration
Chief Information Officer, Defense Threat Reduction Agency
Chief Information Officer, DoD Education Activity
Chief Information Officer, DoD Human Resources Activity
Chief Information Officer, DoD Inspector General
Chief Information Officer, DoD Test Resource Management Center
Chief Information Officer, Missile Defense Agency
Chief Information Officer, Pentagon Force Protection Agency
Chief Information Officer, TRICARE Management Agency
Chief Information Officer, U.S. Mission North Atlantic Treaty Organization
Chief Information Officer, Washington Headquarters Service

Non-Defense Federal Organization
Office of Management and Budget




                                          22

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                      23

Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Operations Support prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Kathryn M. Truex
Donald A. Bloomer
Robert R. Johnson
Gloria A. Young
Cory M. James
Allison Tarmann
